No. 19-1006

Iu the Supreme Court of

the Anited States

Facebook, Inc., and Twitter, Inc.,

Petitioners,

Vv.

Superior Court of San Francisco County,

Derrick D. Hunter, and

Lee Sullivan,

Respondents.

On Petition for a Writ

of Certiorari

to the California Court of Appeal

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition for Respondent Lee Sullivan in the above-entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and that the Brief in

Opposition contains 2,439 words, excluding the
exempted by Supreme Court Rule 33.1(d).

parts of the document that are

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 6, 2020.

Stuart Banner

UCLA School of Law

405 Hilgard Ave.

Los Angeles, CA 90095

(310) 206-8506

banner@law.ucla.edu

Counsel for Respondent Lee Sullivan
